U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                              March 11, 2005
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) in the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the sixth since enactment of the legislation in October 2001 – summarizes the
OIG’s Section 1001-related activities from June 22, 2004, through
December 31, 2004.

  I. INTRODUCTION

      According to the Inspector General Act, the OIG is an independent entity
within the DOJ that reports to both the Attorney General and Congress. The
OIG’s mission is to investigate allegations of waste, fraud, and abuse in DOJ
programs and personnel and to promote economy and efficiency in DOJ
operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components.

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

      •   Audit Division is responsible for independent audits of Department
          programs, computer systems, and financial statements.

      •   Evaluation and Inspections Division provides an alternative
          mechanism to traditional audits and investigations to review
          Department programs and activities.

      •   Investigations Division is responsible for investigating allegations of
          bribery, fraud, abuse, civil rights violations, and violations of other
          criminal laws and administrative procedures that govern Department
          employees, contractors, and grantees.

      •   Office of Oversight and Review blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.




Office of the Inspector General, U.S. Department of Justice              Page 1
      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      •   Management and Planning Division assists the OIG by providing
          services in the areas of planning, budget, finance, personnel, training,
          procurement, automated data processing, computer network
          communications, and general support.

      The OIG has a staff of approximately 420 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

 II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001.1 The
Special Agent in Charge who directs this unit is assisted by two Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001 and
DEA matters and a second who assists on FBI matters. In addition, four
Investigative Specialists support the unit and divide their time between Section
1001 and FBI/DEA responsibilities.

       The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by the Investigative Specialist and an ASAC. After review, the
complaint is entered into an OIG database and a decision is made concerning
its disposition. The more serious civil rights and civil liberties allegations that
relate to actions of DOJ employees or DOJ contractors normally are assigned to
an OIG Investigations Division field office, where OIG special agents conduct
investigations of criminal violations and administrative misconduct.2 Some
complaints are assigned to the OIG’s Office of Oversight and Review for
investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs for appropriate handling. In certain referrals, the OIG requires the
components to report the results of their investigations to the OIG. In most
cases, the OIG notifies the complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff are sent to the Department of Homeland

      1 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI and the DEA.

        2 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively, even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                          Page 3
Security (DHS) OIG. We also have forwarded complaints to the OIGs at the
Department of Veterans Affairs, Department of State, United States Postal
Service, Department of Defense, Central Intelligence Agency, and the Equal
Employment Opportunity Commission. In addition, we have referred
complainants to a variety of police department internal affairs offices that have
jurisdiction over the subject of the complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, the complaint is
discussed with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution.

     A. Complaints Processed This Reporting Period

       From June 22, 2004, through December 31, 2004, the period covered by
this report, the OIG processed 1,943 complaints that were sent primarily to the
OIG’s Section 1001 e-mail or postal address.3

       Of these complaints, 1,748 did not warrant further investigation or did
not fall within the OIG’s jurisdiction. Approximately three-quarters of the
1,748 complaints made allegations that did not warrant an investigation. For
example, some of the complaints alleged that government agents were
broadcasting signals that interfere with a person’s thoughts or dreams or that
prison officials had laced the prison food with hallucinogenic drugs. The
remaining one-quarter of the 1,748 complaints in this category involved
allegations against agencies or entities outside of the DOJ, including other
federal agencies, local governments, or private businesses. We referred those
complaints to the appropriate entity or advised complainants of the entity with
jurisdiction over their allegations.

      Consequently, 195 complaints involved DOJ employees or components
and made allegations that required further review. Of those complaints, 170
raised management issues rather than alleged “civil rights” or “civil liberties”
abuses and were referred to DOJ components for handling. For example,
inmates complained about the general conditions at federal prisons, such as
the poor quality of the food or the lack of hygiene products. Twelve of the 195
complaints did not provide sufficient detail to make a determination whether
an abuse was alleged. We requested further information but did not receive
responses from any of these 12 complainants. Finally, we requested that the
BOP investigate one of the complaints and report to us on the investigation’s

       3 This number includes all complaints in which the complainant makes any mention of
a Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s jurisdiction.


Office of the Inspector General, U.S. Department of Justice                               Page 4
findings. That complaint involved an inmate who complained that he was
sexually harassed by a correctional officer. BOP’s investigation of the matter is
ongoing.

       Therefore, after analyzing these 195 complaints, the OIG identified 12
matters that we believed warranted opening a Section 1001 investigation or
conducting a closer review to determine if Section 1001-related abuse occurred.
Of the 12 new matters, the OIG retained 1 for investigation because the
complainant made allegations of a potentially criminal nature. The OIG closed
one because the allegations already had been addressed in a previous OIG
investigation. The OIG referred the remaining ten matters, which appeared to
raise largely administrative issues, to Department components for further
investigation or review. For six of the ten matters, we requested that the
components report their findings to us.

       It is important to note that none of the complaints we processed during
this reporting period alleged misconduct by DOJ employees relating to use of a
provision in the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period:

Complaints processed:                              1,943
Unrelated complaints:                              1,748
     No investigation warranted:                  (1,283)
     Outside of OIG’s jurisdiction:                 (465)

Complaints within OIG’s
  jurisdiction warranting review:                    195

Non-Section 1001 matters
     Management issues:                              170
     Referred to DOJ components:                       1
     OIG unsuccessfully sought
      further details:                                12

Section 1001 matters
  warranting review:                                 12
      OIG investigation:                              1
      Closed as duplicative:                          1
      Referred to DOJ components:                    10




Office of the Inspector General, U.S. Department of Justice            Page 5
      B. Section 1001 Cases This Reporting Period

          1. Complaints Investigated by the OIG

             a. New matters

      During this reporting period, the OIG opened one new Section 1001-
related investigation, continued four ongoing Section 1001-related cases, and
closed four Section 1001 investigations. The following is a description of the
new matter opened by the OIG:

      •   The OIG received a complaint from a Muslim inmate alleging that
          correctional officers at a BOP facility humiliated and abused Muslim
          inmates because of the officers’ hatred of Muslims. Specifically, the
          inmate alleged that correctional officers used excessive force on him,
          gave other inmates permission to assault him, and then covered up
          the incidents. The inmate also claimed that the BOP staff improperly
          denied him showers, social visits, and the right to attend religious
          services.

             b. Cases opened during previous reporting periods that the
                OIG continues to investigate

      ● The OIG continued an investigation of the FBI’s conduct in connection
        with the erroneous identification of a latent fingerprint found on
        evidence from the March 2004 Madrid train bombing as belonging to
        Brandon Mayfield, an attorney in Portland, Oregon. As a result of the
        identification, the FBI had initiated an investigation of Mayfield that
        resulted in his arrest as a “material witness” and his detention for
        approximately two weeks. Mayfield was released when Spanish
        National Police matched the fingerprints on the evidence to an
        Algerian national. The OIG is examining the cause of the erroneous
        fingerprint identification and the FBI’s handling of the matter. The
        Department’s Office of Professional Responsibility is reviewing the
        conduct of the prosecutors in the case.

      ● The OIG is investigating allegations made by an Egyptian national
        that during his detention at a BOP facility he was subjected to an
        invasive body cavity search in the presence of numerous people,
        including a female officer; placed alone in a cell under severe
        restrictions for more than two months; and had his ability to practice
        his religion undermined intentionally by the prison staff. The OIG has
        interviewed the Egyptian national and numerous BOP employees as
        part of the investigation.




Office of the Inspector General, U.S. Department of Justice            Page 6
      ● The OIG is investigating allegations by a Muslim inmate that prior to
        his arrival at a BOP facility, correctional officers informed other
        inmates that he was a radical Muslim who would try to take over the
        leadership of other Muslim inmates. He further alleged that since his
        arrival at the BOP facility, he has been subjected to excessive,
        undocumented searches; placed in the Special Housing Unit in
        retaliation for “writing up” correctional officers; and verbally abused,
        physically threatened, and spat upon by a correctional officer.

      ● The OIG continues its investigation of allegations that a BOP
        correctional officer verbally and physically abused a Muslim inmate
        while the inmate was being transported to the prison’s hospital and
        that the inmate was placed improperly in solitary confinement
        following the incident.

             c. OIG investigations completed during this reporting
                period

      ● The OIG investigated allegations by Muslim inmates that staff at a
        BOP prison, including the warden, discriminated against the inmates
        and engaged in retaliatory actions. The OIG substantiated many of
        the allegations against the warden and other BOP staff. The OIG
        found a disturbing pattern of discriminatory and retaliatory actions
        against Muslim inmates by BOP officers at this facility, particularly
        against those who complained about poor conditions at the prison
        and those who cooperated with the OIG investigation.

         For example, we found that Muslim inmates meeting the criteria for
         bed reassignment were denied an opportunity to relocate within the
         unit to facilitate their prayer requirements. In contrast, non-Muslim
         inmates requesting bed reassignments generally were accommodated.
         We also found that members of the prison’s executive staff, including
         the warden, unfairly punished Muslim inmates who complained about
         the conditions of confinement or who cooperated with the OIG’s
         investigation. For instance, a Muslim inmate who had filed
         complaints relating to his treatment at the prison was placed in the
         Special Housing Unit for four months for what we determined were
         specious reasons. In a separate incident, our review found that 5
         days after the OIG interviewed a Muslim inmate, the warden
         inappropriately and unjustly ordered the inmate transferred to the
         Special Housing Unit for more than 120 days. After prosecution of
         this matter was declined by the U.S. Attorney’s Office, we provided
         our report to the BOP for administrative action.

      ● The OIG completed its investigation into allegations of misconduct
        relating to dialysis treatment of Muslim inmates at a BOP medical


Office of the Inspector General, U.S. Department of Justice            Page 7
         center. The OIG had received letters from two inmates alleging that
         inmate patients were required to take injections of porcine (pork)
         heparin as part of their dialysis treatment, despite the patients’
         religious objections to pork. The OIG found several deficiencies in the
         medical center’s management of information and communications
         affecting the use of heparin for the inmates’ treatment. The OIG
         provided several recommendations to the BOP relating to these
         deficiencies. The BOP agreed to adopt these recommendations.

      ● The OIG investigated allegations by a Muslim inmate that BOP
        correctional officers subjected him to verbal abuse, discriminatory
        practices, and anti-Islamic sentiment. The inmate claimed that these
        abuses intensified after September 11, 2001, and that he was
        transferred to another BOP facility in retaliation for filing complaints
        against BOP correctional officers. Although the investigation revealed
        no evidence that BOP staff discriminated against the complainant
        because of his religious or political beliefs, one of the subjects
        admitted that he showed the complainant a photograph of a nude
        female and scratched his groin area before attempting to shake the
        hands of inmates. The OIG provided its report of investigation to the
        BOP for appropriate action.

      ● The OIG investigated allegations that four individuals of Arab descent
        were detained improperly by FBI agents at the U.S. port of entry in
        the Virgin Islands. Allegedly, the four were questioned, handcuffed,
        and transported to an FBI facility for further questioning without
        being provided an explanation for their detainment. They claimed
        they were fingerprinted, photographed, and subjected to humiliation.
        The OIG investigation did not substantiate any misconduct by the FBI
        agents or that the individuals were subjected to humiliation by the
        agents. The OIG provided its report of investigation to the FBI.

      ● The OIG investigated allegations from a Muslim individual who alleged
        that he was abused by FBI agents and immigration detention officers
        from the time he was arrested in March 2002 until he was deported in
        April 2002. The OIG investigation did not substantiate these
        allegations.

         2. Complaints Referred to Other Components

       During this reporting period, the OIG referred ten of the new complaints
to internal affairs offices within DOJ components for investigation or closer
review. Three of the complaints were referred to the FBI. In one of those
complaints, the Council on American-Islamic Relations alleged that an FBI
agent violated the civil rights of a Muslim individual when the agent questioned



Office of the Inspector General, U.S. Department of Justice            Page 8
the individual regarding his immigration status and knowledge of terrorist
activities. The FBI’s Inspection Division currently is investigating this matter.

       In the second complaint, an off-duty BOP Correctional Officer of Arab
descent alleged that he and another individual were victims of racial profiling
when they were detained at an airport and questioned for several hours about
their suspicious behavior during a flight. After we referred the complaint to the
FBI Inspection Division, that office reviewed the matter and determined that
the FBI agents did not violate FBI policy. The third complaint referred to the
FBI involved a national security matter that was investigated by the FBI’s
Inspection Division and is pending resolution.

      The OIG referred seven of the ten complaints to the BOP’s Office of
Internal Affairs (OIA). The complaints included allegations that BOP staff
verbally abused Muslim inmates, placed Muslim inmates in segregation,
confiscated Muslim inmates’ religious articles, and denied Muslim inmates’
telephone privileges and library access. Four of the complaints sent to the BOP
were designated by the OIG as “Monitored Referrals,” which means the BOP is
required at the end of its investigation to send a report of the investigation to
the OIG for its review. Of these four complaints, the BOP closed two matters as
unsubstantiated, while the other two matters remain open. The BOP has an
open investigation on each of the three other matters.

       During this reporting period, the FBI addressed a matter that the OIG
had referred to the FBI for review during the previous reporting period. The
matter involved an electronic communication (EC) from one FBI field office to
other FBI field offices around the country identifying the names and addresses
of the proprietors and customers of a Muslim-based website. The EC listed the
proprietors’ and customers’ names by FBI field office for the respective office to
take whatever action it deemed appropriate. The OIG received a copy of the EC
from an FBI employee concerned about the lack of predication or apparent
basis on the face of the EC for the leads to be sent for investigation to the FBI
field offices. We asked the FBI Inspection Division to review the incident and
report back to us. In this reporting period, the FBI Inspection Division notified
us that the FBI recognized that the EC raised First Amendment concerns. The
FBI retracted the EC and directed the field offices to conduct no further
investigative action based on the EC and to destroy all copies of the EC. The
Inspection Division also informed us that the FBI had concluded that the EC
should have been reviewed by the legal advisor for the originating field office
prior to being disseminated and that in the future such an EC will be subject to
legal review.




Office of the Inspector General, U.S. Department of Justice              Page 9
       C. Other OIG Activities Related to Allegations of Civil Rights
          and Civil Liberties Abuses

      The OIG has conducted other reviews that go beyond the explicit
requirements of Section 1001 in order to implement more fully its civil rights
and civil liberties oversight responsibilities. Given the multi-disciplinary
nature of its work force, the OIG can extend its oversight beyond traditional
investigations to include evaluations, audits, and special reviews of DOJ
programs and personnel. Using this approach, the OIG has initiated or
continued several special reviews that address, in part, issues relating to the
OIG’s duties under Section 1001.

          1. Review of FBI Conduct Relating to Detainees in Military
             Facilities in Guantanamo Bay and Iraq

      During the reporting period, the FBI began a special inquiry into FBI
agents’ observations of interrogation techniques used on detainees held at the
U.S. military’s Guantanamo Bay and Abu Ghraib prison facilities. The OIG
requested materials from the FBI relating to the special inquiry and, after
reviewing them, opened a review of this matter.

      The OIG is examining whether any FBI staff observed or participated in
non-law enforcement interrogation techniques of detainees at U.S. military
detention facilities. In addition, the OIG is reviewing whether FBI employees
reported their observations of these interrogation techniques and how those
reports were handled.

          2. Supplemental Report on September 11 Detainees’ Allegations
             of Abuse at the Metropolitan Detention Center in Brooklyn,
             New York

      An OIG special review issued in December 2003 (and described in detail
in our January 2004 Section 1001 report) examined allegations that some
correctional officers physically and verbally abused some detainees held in
connection with the Department’s terrorism investigation at the Metropolitan
Detention Center (MDC) in Brooklyn, New York.4 We concluded that certain
MDC staff members abused some of the detainees, and we found systemic
problems in the way detainees were treated at the MDC. In December 2003,
we provided the results of our investigation to the BOP for its review and
appropriate disciplinary action.
       4 See “Supplemental Report on September 11 Detainees’ Allegations of Abuse at the

Metropolitan Detention Center in Brooklyn, New York” (MDC Report), issued December 18,
2003. The MDC Report supplemented an OIG report issued in June 2003 entitled, “The
September 11 Detainees: A review of the Treatment of Aliens Held on Immigration Charges in
Connection with the Investigation of the September 11 Attacks.” Both reports can be found on
the OIG’s internet website (www.usdoj.gov/oig) under “Special Reports.”


Office of the Inspector General, U.S. Department of Justice                      Page 10
        In response to our report and recommendations, the BOP OIA initiated
an investigation based on the OIG’s findings to determine whether discipline is
warranted. More than a year later, the OIA review still is ongoing, and the BOP
still is considering appropriate disciplinary action. The OIG continues to
monitor this review and the BOP’s ultimate actions with regard to disciplinary
action.

       In addition, during this reporting period, the BOP informed the OIG that
it discovered additional videotapes from the MDC relevant to the OIG’s
supplemental review regarding abuse related to the September 11 detainees
which had not been provided previously to the OIG – or the BOP OIA – as
required. Some of the videotapes included additional instances of video- and
audio-taped meetings between detainees and their attorneys at the MDC.
Others concerned detainee movements. The OIG and the BOP OIA are
reviewing the newly discovered videotapes. The OIG and the BOP OIA also
have opened a joint investigation to determine why the MDC had not previously
provided these videotapes.

      With respect to the systemic problems we found at the MDC, our
December 2003 Supplemental Report made seven recommendations to the
BOP ranging from developing guidance for training correctional officers in
appropriate restraint techniques to educating BOP staff concerning the
impropriety of audio recording meetings between inmates and their attorneys.
The BOP’s response to the recommendations and the OIG analysis of that
response can be found on the OIG’s website under “Special Reports.” In
February 2005, the BOP provided materials to close the remaining two
recommendations.

         3. OIG’s Analysis of the Department’s Responses to
            Recommendations in the Detainee Report

      In its June 2003 Detainee Report, the OIG made 21 recommendations
related to issues under the jurisdiction of the FBI, the BOP, leadership offices
at the DOJ, as well as immigration issues now under the jurisdiction of the
DHS. As of this reporting period, 20 of the recommendations have been
resolved. The one open recommendation calls for the Department and the DHS
to enter into a memorandum of understanding (MOU) to formalize policies,
responsibilities, and procedures for managing a national emergency that
involves alien detainees. This MOU has not yet been established. Negotiations
between the Department and the DHS over the language of the MOU are
ongoing.




Office of the Inspector General, U.S. Department of Justice           Page 11
         4. Review of the FBI’s Implementation of Attorney
            General Guidelines

      In May 2002, the Attorney General issued revised domestic Guidelines
that govern general crimes and criminal intelligence investigations. The OIG is
conducting a review of the FBI’s implementation of four sets of Attorney
General Guidelines: Attorney General’s Guidelines Regarding the Use of
Confidential Informants; Attorney General’s Guidelines on FBI Undercover
Operations; Attorney General’s Guidelines on General Crimes, Racketeering
Enterprise and Terrorism Enterprise Investigations; and Revised Department of
Justice Procedures for Lawful, Warrantless Monitoring of Verbal
Communications.

        The objectives of the OIG review are to determine what steps the FBI has
taken to implement the Guidelines, examine how effective those steps have
been, and assess the FBI’s compliance with key provisions of the Guidelines.
Because the FBI’s adherence to these Guidelines could implicate civil rights or
civil liberties issues under Section 1001, we are including a description of the
review in this report.

IV. ADVERTISING RESPONSIBILITIES

      Make public through the Internet, radio, television, and newspaper
      advertisements information on the responsibilities and functions of,
      and how to contact, the official.

       The OIG continues to meet its Section 1001 advertising requirements in
a variety of ways.

     A. Internet

       The OIG’s Internet website contains information about how individuals
can report violations of their civil rights or civil liberties. On our website, the
OIG also continues to promote an e-mail address (inspector.general@usdoj.gov)
where individuals can send complaints of civil rights and civil liberties
violations. The OIG received most of the 1,943 complaints processed this
reporting period via e-mail.




Office of the Inspector General, U.S. Department of Justice              Page 12
      The OIG previously developed a poster, translated in Arabic, that
explains how to file a civil rights or civil liberties complaint with the OIG.
An electronic version of this poster is available on our website.

      The DOJ’s main Internet homepage contains a link that provides a
variety of options for reporting civil rights and civil liberties violations to the
OIG. The Civil Rights Division’s website also describes the OIG’s role in
investigating allegations of misconduct by DOJ employees and provides
information on how to file a complaint with the OIG.

        In addition, several minority and ethnic organizations have added
information to their websites about how to contact the OIG with civil rights and
civil liberties complaints. For example, the Arab American Institute
(www.aaiusa.org), an organization that represents Arab Americans’ interests
and provides community services, added the OIG’s Section 1001 poster to its
website of information and resources for the Arab American community. The
Institute also has informed its members and affiliates of the OIG’s
Section 1001 responsibilities through its weekly e-mail newsletter. Similarly,
the American-Arab Anti-Discrimination Committee (ADC), one of the largest
Arab-American organizations in the nation, has posted the OIG’s contact
information and Section 1001 responsibilities on its website, which at one time


Office of the Inspector General, U.S. Department of Justice                  Page 13
averaged more than 1 million hits per month. The ADC also has published the
OIG’s Section 1001 responsibilities in its magazine, the ADC Times, which is
circulated to more than 20,000 people. Furthermore, the OIG’s Arabic poster
and Section 1001 responsibilities have been disseminated electronically by the
Council on American Islamic Relations LISTERV and the National Association
of Muslim Lawyers LISTSERV.

     B. Television

       In the prior reporting period, the OIG arranged to have the following
television advertisement aired in areas with a higher concentration of Arab
speakers with the text spoken in Arabic and scrolled in English:

      The Office of the Inspector General investigates allegations of
      civil rights and civil liberties abuses by U.S. Department of
      Justice employees. If you believe a Department of Justice
      employee has violated your civil rights or civil liberties, contact
      the Inspector General at 800-869-4499. That number again is
      800-869-4499.

      The OIG also purchased blocks of time on ANA Television Network, Inc.,
an Arab cable television station with outlets around the country. According to
the promotional materials at the time, ANA Television Network was the largest
Arab-American television network in the country. The segment aired 48 times
during prime time in June and July 2003.

     C. Radio

      Also in the prior reporting period, the OIG submitted public service
announcements (PSA) to 45 radio stations in cities across the country,
including New York, Los Angeles, Sacramento, Chicago, Detroit, Houston,
Dallas, and Washington, D.C. The text of the PSA read:

      The Office of the Inspector General investigates allegations of
      civil rights and civil liberties abuses by U.S. Department of
      Justice employees. If you believe a Department of Justice
      employee has violated your civil rights or civil liberties, contact
      the Inspector General at 800-869-4499.

      In an earlier period, we also purchased airtime for 44 radio
advertisements on Arab/Muslim American radio stations in New York, Chicago,
Los Angeles, Detroit, and Dallas. These advertisements, both in English and
Arabic, were 60 seconds long and included the PSA listed above.




Office of the Inspector General, U.S. Department of Justice                 Page 14
     D. Posters

       Previously, the OIG disseminated approximately 2,500 Section 1001
posters to more than 150 organizations in 50 cities. The posters, in English
and Arabic, explain how to contact the OIG to report civil rights and civil
liberties abuses.

        As we discussed in a previous reporting period, we also provided the
posters to the BOP, which placed at least two in each of its facilities. We have
received hundreds of complaints each reporting period from inmates alleging
civil rights and civil liberties abuses, many of which we believe were sent to us
in response to the posters.




Office of the Inspector General, U.S. Department of Justice             Page 15
     E. Newspapers

        During the last reporting period, the OIG purchased additional
newspaper advertisements highlighting its role in investigating allegations of
civil rights and civil liberties abuses. The display advertisement was placed in
an Arab community newspaper and appeared both in English and Arabic.



Office of the Inspector General, U.S. Department of Justice            Page 16
Office of the Inspector General, U.S. Department of Justice   Page 17
      F. Flyers

      The OIG had flyers translated into several commonly spoken languages
in the Muslim world, including Arabic, Urdu, Punjabi, and Vietnamese. We are
awaiting translations into Indonesian and Malaysian.




 REPORT
 CIVIL RIGHTS & CIVIL LIBERTIES ABUSES

                                                   The Office of the Inspector General
                                                   (OIG), U.S. Department of Justice,
                                                   investigates allegations of civil rights
                                                   and civil liberties abuses by
                                                   Department of Justice employees in
                                                   the FBI, DEA, ATF, Federal Bureau
                                                   of Prisons, U.S. Marshals Service,
                                                   U.S. Attorneys Offices, and all other
                                                   Department of Justice agencies.

                                                    If you believe a Department of
                                                     Justice employee has violated
                                                        your civil rights or civil
                                                        liberties, you may file a
                                                      complaint with the OIG by:
                                                   mail: Civil Rights & Civil Liberties Complaints
 mail: Civil Rights & Civil Liberties Complaints         Office of the Inspector General
       Office of the Inspector General                   U.S. Department of Justice
       U.S. Department of Justice                        950 Pennsylvania Avenue, NW
       950 Pennsylvania Avenue, NW                       Washington, D.C. 20530
       Washington, D.C. 20530
                                                   e-mail: inspector.general@usdoj.gov
 e-mail: inspector.general@usdoj.gov
 or fax: (202) 616-9898                            or fax: (202) 616-9898

 For more information, call (800) 869-4499 or      For more information, call (800) 869-4499 or
 visit the OIG’s website at www.usdoj.gov/oig      visit the OIG’s website at www.usdoj.gov/oig



Office of the Inspector General, U.S. Department of Justice                          Page 18
  V. EXPENSE OF IMPLEMENTING SECTION 1001

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $428,856
in personnel costs, $13,592 in travel costs (for investigators to conduct
interviews), and $600 in advertising and publication costs, for a total of
$443,048 to implement its responsibilities under Section 1001. The
personnel and travel costs reflect the time and funds spent by OIG Special
Agents, inspectors, and attorneys who have worked directly on investigating
Section 1001-related complaints and on conducting special reviews.




Office of the Inspector General, U.S. Department of Justice            Page 19
